U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


            USE OF THE
 GOVERNMENTWIDE PURCHASE CARD,
     OFFICE OF THE SECRETARY


             REPORT NO. 99-I-375
                MARCH 1999
                                                                          H-IN-OSS-00 1-97


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20240




                               SURVEY REPORT

Memorandum

To:      Assistant Secretary for Policy, Management and Budget

From:
         Ez; ~~~~ G&tihi?--

Subject: Survey Report on the Use of the Governmentwide Purchase Card, Offlice of the
         Secretary (No. 99-I-375)

                                INTRODUCTION
This report presents the results of our survey on the use of the Governmentwide purchase
card by offices within the Office of the Secretary and other offices for which the Office of
the Secretary provides purchase card services (see Appendix 1). The objective of the review
was to determine whether the Office of the Secretary managed the Governmentwide
Purchase Card Program in accordance with applicable laws, regulations, and guidelines.

BACKGROUND

In 1989, the General Services Administration awarded a contract to Rocky Mountain
BankCard System to provide credit card services within the Federal Government. The card
was intended to streamline the small purchase and payment processes. The BankCard System
issued instructions on using credit cards and approving credit card purchases as follows: (1)
Cardholder Lnstructions for the Use of the Governmentwide Credit Card and (2) Approving
Official Instructions for the Use of the Governmentwide Credit Card. On June 28,1990, the
Department of the Interior issued the “Handbook for Utilization of the Governmentwide
Commercial Credit Card,” under Department of the Interior Acquisition Policy Release 90-
35. In October 1990, the Off~ce of Aircraft Services issued the “Procurement Guide, for
Fleet Aircraft Parts and Services,” which included Instruction 540-2, “Use of Govemment-
wide Commercial Credit Card.” One purpose of the “Procurement Guide” was to supplement
the Department’s “Handbook” with specific instructions pertinent to the Office of Aircraft
Services. In June 1994, the Office of the Secretary issued its Administrative Handbook,
“Contracting and Procurement-Commercial Credit Card.” The Administrative Handbook
provided information on the proper use of the purchase card to employees of the Office of
the Secretary and the offices it services. Within these offices, purchase cards are used
primarily for the acquisition of supplies and services costing $2,500 or less.

On a monthly basis, the BankCard System submits invoices to the following offices within
the Office of the Secretary: the Interior Service Center, Washington, D.C.; the Office ofTrust
Funds Management, Denver, Colorado; and the Office of Aircraft Services, Boise, Idaho.
The monthly invoices represent the aggregate credit card amounts for each participating
office within the Office of the Secretary. In addition, the BankCard System submits to each
cardholder a monthly statement that itemizes the cardholder’s transactions. Upon receipt of
the monthly cardholder statement, the cardholder is required to reconcile the statement with
the transaction documentation and certify that all purchases listed on the statement are
accurate and were made for offtcial Government purposes. The cardholder is required to
forward the certified statement and all supporting documentation to the cognizant approving
official. The approving official is required to review the cardholder’s statement and
supporting documentation and to certify that the cardholder’s purchases were made for valid
Government purposes. The Bar&Card System also submits to each approving official a
statement (Business Account Summary) that lists monthly purchase amounts made by all
cardholders assigned to the approving official.

On May 15, 1998, the Department awarded a task order under the General Services
Administration’s SmartPay Program Contract with NationsBank to provide credit card
services to the Department. This contract replaced the contract awarded by the General
Services Administration to Rocky Mountain Bar&Card System. On November 18, 1998,
subsequent to the issuance of the draft report, the Department issued revised guidelines for
using the new credit cards, Although the new guidelines provide for an approving official,
this official is not required to certify the cardholder’s statement. The new guidelines state
that the approving official is responsible for providing oversight of and for monitoring the
designated cardholder’s compliance with the rules and procedures. The guidelines further
state that the approving official is expected to review the cardholder’s transactions “on-line”
and through a series of standard ad hoc exception reports. The guidelines also require
bureaus to establish individual transaction review processes and procedures and to submit
a copy of the review with their findings to the appropriate bureau officials.

SCOPE OF SURVEY

Our survey included purchases made with the Government purchase card for the period of
October 1996 through July 1997 by Office of the Secretary employees and employees of the
other offtces and agencies serviced by the Of&e of the Secretary. The 3 15 cardholders
within these offices generated 6,452 purchases, valued at $2.5 million. We judgmentally
selected 796 purchases, totaling $413,508, made by 53 cardholders and reviewed by 38
approving officials. Cardholders and approving officials were selected from each office
based on the months with the highest dollar value transactions. We did not include purchases
made by the Office of Inspector General in our review because of the lack of independence.
Although we excluded the Office of the Inspector General from this review, credit card


                                              2
   purchases made by Office of Inspector General cardholders during fiscal year 1997 were
   included in an internal management control review report dated April 23, 1998.

  Our survey was made in accordance with the “Government Auditing Standards,” issued by
  the Comptroller General of the United States. Accordingly, we included such tests of records
d and other auditing procedures that were considered necessary under the circumstances. In
  planning our survey, we reviewed the Department’s Accountability Report for fiscal year
  1996, which includes information required by the Federal Managers’ Financial Integrity Act,
  and determined that no material weaknesses were reported that directly related to the
  objective and scope of our survey.

   We also evaluated the Office of the Secretary’s system of internal controls related to
   purchase card activities and found weaknesses in the areas of approving officials’ reviews,
   unauthorized use, split purchases, telephone order logbooks, and card security. We also
   determined that the Office of the Secretary did not provide adequate oversight of purchases
   made with the cards. These weaknesses and the recommended corrective actions are
   discussed in the Results of Survey section of this report. The recommendations, if
   implemented. should improve the internal controls in these areas.

   PRIOR AUDIT COVERAGE

  The Offrce of the Inspector General has not issued any reports during the past 5 years
  concerning the Office ofthe Secretary’s management ofthe Governmentwide purchase card.
  However, the General Accounting Offrce issued the report “Acquisition Reform: Purchase
  Card Use Cuts Procurement Costs, Improves Efficiency” (No. GAOMSIAD-96- 13 8) dated
  August 6, 1996. The report stated, “Agencies have found they can support their missions at
  reduced costs by having program staff use the purchase card for simple purchases. Further,
  agency studies have shown that purchase card use reduces labor and payment processing
  costs.” Although the Department of the Interior was included in the study, no findings were
  directly related to the Department.


                              RESULTS OF SURVEY

  We found that for 192 ($142,446) of the 796 ($413,508) transactions reviewed, the
  approving officials either did not certify the cardholders’ statements or certified the
  statements without obtaining vendor invoices or itemized receipts to verify that the items
  purchased were for valid Government purposes. We also found that cardholders allowed
  noncardholders to use their card for 12 purchases, totaling $4,235; split orders for 41
  purchases, totaling $56,923; and either did not maintain telephone logbooks or maintained
  inadequate logbooks for 433 purchases, totaling $247,883. In addition, we found that 19 of
  the 53 cardholders included in our review did not adequately safeguard their purchase cards.
  The instructions and procedures for the use of the Governmentwide purchase card are
  included in the Bankcard System’s Cardholder Instructions and Approving Officials
  Instructions, the Department’s “Handbook,” the Offrce of the Secretary’s Administrative

                                                3
Handbook, and Aircraft Services Procurement Guide. The deficiencies occurred because
(1) approving offL%r.ls did not perform all of the required review procedures and (2) the
Office of the Secretary did not perform periodic reviews of the Purchase Card Program. As
a result, the Offtce of the Secretary did not have reasonable assurance that improper use of
the purchase cards would be prevented or detected in a timely manner for the transactions
reviewed.

Approving Offkials’ Reviews

Section IV of the Department’s “Handbook” states that approving officials are responsible
for (1) maintaining a current listing of all cardholders under their purview, (2) reviewing
cardholders’ transactions and performing a monthly reconciliation and certification of each
cardholder’s statement against the monthly Business Account Summary submitted to the
approving offtcials by the Bankcard System, (3) verifying that all transactions were made for
valid Government purposes, and (4) ensuring that all goods and/or services have been
received. After certifying that the cardholders’ statements are accurate, the approving official
is to forward the original statements to the appropriate finance office. in order to adequately
verify that the purchases made by the cardholders are for valid Government purposes,
approving offtcials need to (1) review the approving officials’ statements to ensure that all
cardholders have submitted their statements; (2) review all of the documentation, such as
invoices or itemized receipts, required by the Department’s “Handbook,” the Administrative
Handbook, and the Procurement Guide; and (3) ensure that a description of the items
purchased is annotated on the statement by the cardholder and that the statement is in
agreement with the description on the invoice or the itemized receipt.

We found that for 192 (24 percent) of the 796 transactions we reviewed, 28 (74 percent) of
the 38 approving officials either did not certify the cardholders’ statements or certified the
cardholders’ statements without reviewing documents such as vendor invoices or itemized
receipts to verify that the purchases were for valid Government purposes. In addition, 18
of the 38 approving offtcials did not reconcile the cardholders’ statements to the
corresponding approving officials’ Business Account Summary to ensure that all cardholders
who made purchases submitted their statements. By not reviewing receipts and invoices and
by not reconciling the Business Account Summary with the cardholders’ statements,
inappropriate purchases could be made and not be detected. Examples of the lack of
certification and/or documentation and the lack of approving offtcials’ reconciliation are as
follows:

       - A Space and Facilities Management Division cardholder’s statement containing three
transactions, valued at $5,400, was paid, even though there was no invoice for one purchase,
valued at $2,400, and the statement had not been certified by an approving official.
According to the description provided by the cardholder on the statement., these purchases
consisted of services for water treatment and duct cleaning. The cardholder stated that the
vendor did not provide him with an invoice for the cleaning service and that the approving
official had retired by the time that the statement had arrived for processing. The cardholder
further stated that as such, he gave the statement to an employee who was to become his

                                               4
approving official. However, this employee said that he never received the statement.
Consequently, we could not verify that this purchase was for a valid Government purpose.

        - Three transactions of a cardholder, valued at $15 18, were paid, even though neither
the cardholder nor the approving official in the Interior Service Center’s Division of
Communication and Information Systems and Services had certified that the purchases were
valid and necessary. We found that 8 months later, the statement, dated June 13,1997, was
still in the cardholder’s desk drawer. Section 7.E of the Administrative Handbook provides
5 days for the cardholder’s approval, 7 days for the approving official’s review and
certification, and 3 days for mailing the statement. Furthermore, there were no invoices
and/or receipts on file for two of the three purchases, nor was there any description on the
cardholder’s statement of what was purchased. Therefore, we could not determine what
types of items were purchased. The cardholder told us that she was not certain as to why the
statement had not been processed properly, and the approving official stated that she had “no
way of knowing” that the cardholder had a statement which had not been processed.
However, this discrepancy could have been detected if the approving official had reviewed
and reconciled the Business Account Summary to the cardholder’s statements.

       - An approving offtcial within the Office of Aircraft Services approved 26 transactions,
valued at $61,325, even though there were no invoices and/or receipts for 12 purchases,
totaling $42,833. In addition, the cardholder had not provided a description for the 26 items
on the statement. Based on the descriptions on the purchase requisitions, we determined that
items such as computer equipment, airplane parts, and training were ordered. The approving
official told us that her review consisted only of checking the cardholder’s statement for
transactions in excess of $2,500. The approving official further stated that for six
transactions which exceeded $2,500 ($5 1,823 ), she tried to ensure that there was evidence
of competition. In addition, the approving offtcial told us that she does not review the
Business Account Summary because it generally arrives about 5 days after she has reviewed
the cardholder’s statements.

      - Both a cardholder and the approving official within the Offtce of Aircraft Services
certified payment for a transaction valued at $654 on the cardholder’s July 11, 1997,
statement. The purchase was described by the cardholder as “services to provide helicopter.”
The vendor’s invoice, dated June 18,1997, was for 5 hours of flight time, 1 night of per diem,
and 2 days of wages. In addition, a letter from the vendor requesting payment stated,“The
job that I almost did.” The cardholder told us that the vendor did not perform any services
because the services requested were canceled. At the exit conference on June 30,1998, the
approving official stated that she would send us documentation that the vendor had flown a
helicopter to the work location. The documentation, which was provided on July 2, 1998,
included a memorandum prepared by the cardholder that we had not previously reviewed
during our site visit, which stated that the vendor had incurred mobilization expenses. On
July 8,1998, we asked the cardholder to explain what types of expenses were included in the
mobilization expenses. The cardholder stated, in writing, that the mobilization expenses
consisted solely of labor costs, On July 16, 1998, the approving offtcial sent us additional
written information to explain the services provided. The information provided stated that
the expenses consisted of (1) $425 for fuel costs to “fly a pilot employed by the vendor, from

                                               5
his heliport to the designated start point of the contract, “which was approximately
3 l/2 hours each way; (2) $66 for 1 night per diem for overnight expenses at the location; and
(3) 2 days of wages for a pilot. Based on the conflicting information provided by the
cardholder and the approving official, we contacted the vendor, who stated that he did not
 incur any expenses relating to the Office of Aircraft Services project. However, he also
 stated that he believed he should be paid because his pilot was ready to start the Office of
Aircraft Services project and he had to hire another pilot to perform a previously scheduled
job that his pilot was to perform. The bill the vendor submitted was baaed on the costs
incurred on the previously scheduled project. Consequently, the cardholder and the
approving official approved this document without sufficient information concerning the
nature of the charges. In addition, the vendor was paid for a service that was not provided
to the Office of Aircraft Services.

       - An approving official within the Office of Aircraft Services approved a cardholder’s
February 13,1997, statement, which contained a $4,089 charge for the annual inspection and
repair of an aircraft, even though the cardholder had not provided a description of the
services purchased, and, at the time of our visit, no invoice was on file. After our visit,
Office of Aircraft Services officials forwarded the supporting invoice and charge slip for the
transaction. In addition, the cardholder did not sign the statement certifying that the purchase
was valid and necessary. Morever, the purchase was certified for payment 4 months late.
We also found that four other cardholders’ statements, totaling $16,354, were certified 2 to
4 months late. The approving official told us that since she was the only approving official
for the 50 pilots, most of her statements were signed late because of “higher priority duties
and lack of time to accomplish all tasks.” According to Aircraft Service’s September 16,
1998, response to the draft report, the approving official also stated that “choices had to be
made between paying interest . . . on $50,000 contract payments or reconciling statements
that were already paid and were not accumulating interest charges” and that “review of
cardholder statements was not a high priority because the pilots have been conscientious with
the use of their purchase cards and the risk of abuse was considered minimal.” During the
annual inspection, which cost $765, the vendor identified repairs of $3,324 that were needed
to certify the aircraft as “airworthy.” The cardholder authorized the vendor to make the
repairs to the aircraft. The approving official told us that the cardholder should have notified
her when it was determined that the estimated cost of repairs would exceed $2,500 and that
she had “problems” with the cardholder (the pilot) in the past “doing what he wanted to do.”

We asked the credit card coordinator how this purchase could be processed since it exceeded
the $2,500 limit by $1,589. The credit card coordinator stated that the Chief, Division of
Acquisition Management, stipulated in an August 2, 1996, memorandum, that the single
purchase procurement threshold for all pilots who were issued credit cards be reduced from
$10,000 to $2,500, with a monthly limit of $10,000, to comply with the single purchase
threshold contained in the Department’s “Handbook.” The memorandum further stated that
the Office of Aircraft Services had requested authority to permit the pilots to make single
purchases in the amount of % 10,000 and that, until approval was received, all purchases of
more than $2,500 were required to be made by a contracting officer. A memorandum was
sent to the Director, Office of Acquisition and Property Management, Assistant Secretary for
Policy, Management and Budget, on July 29,1996, which requested that the single purchase

                                               6
limit be increased to $10,000 for only 8 of the 50 pilots. However, the Rocky Mountain
Bank had not been notified of the change; therefore, all 50 of the pilots were able to
purchase items in excess of the $2,500 threshold. According to the credit card coordinator,
the request was denied, and Office of Aircraft Services officials told us that they had notified
Rocky Mountain Bank to reduce the pilots’ single purchase limit to $2,500. Rocky Mountain
Bank oflicials said that one of the five pilots we reviewed still had a $10,000 single purchase
limit.

Other Deficiencies

Cardholders did not follow all purchase card procedures for 486 purchases, totaling
$309,041. Specifically, individuals who were not authorized cardholders made 12 purchases,
totaling $4,235; 13 orders were split into 41 purchases, totaling $56,923, therefore staying
within the single purchase threshold; and cardholders either did not maintain a logbook or
maintained an inadequate logbook for 433 purchases, valued at $247,883, that were made
by telephone. As a result, there was an increased risk that the card could be used for personal
use and that purchase limits could be exceeded.

      Unauthorized Use. The Department’s “Handbook” (Section X) and the Administrative
Handbook (Section 8. D) require that the purchase card be used only by the cardholder.
However, for 12 purchases, totaling $4,235, the sales receipts were signed by three
individuals who were not the authorized cardholders. The respective cardholders told us that
they allowed their assistants to use their cards and sign for some local purchases “as a matter
of convenience.“

      Split Purchases. The Department’s “Handbook” (Section VII), the Administrative
Handbook (Section 5 .F( 1 )), and the Procurement Guide (Introduction) stipulate that payment
for purchases not be split to stay within the cardholders’ single purchase threshold.
However, cardholders split 13 orders for similar items from the same vendor into 41
purchases, totaling $56,923. The total amount paid to each vendor for the items exceeded
the single purchase limit. For example, a cardholder within the Office of the Solicitor
purchased toner with a total value of $8,742 on September 26, 1997, and, according to the
cardholder’s bank card telephone order log, split the purchase into nine purchases with the
same vendor. Each of the nine purchases was under the cardholder’s $2,500 threshold.

      Telephone Order Logbooks. The Department’s “Handbook” (Attachment C), the
Administrative Handbook (Section 7(2)), and the Procurement Guide (Illustration 2) require
that purchase card users maintain a logbook of all transactions made by telephone. Each
purchase card transaction is to be entered in the logbook at the time the order is placed, and
the documentation should be used to verify the purchases shown on the cardholder’s monthly
statement. According to the guidance, the logbook also should be maintained so that
individual and cumulative costs of orders can be tracked to ensure that the delegated monthly
limit is not exceeded. The monthly limit is the amount a cardholder may spend in a 30&y
period and is established by the approving official based on anticipated use and budgetary
considerations. The monthly limit for the cardholders reviewed ranged from $2,500 to
$150,000. We found that cardholders did not maintain a logbook for 386 telephone

                                               7
purchases, valued at $156,426, of the 433 telephone purchases reviewed. Although the
remaining 47 purchases, totaling $8 1,957, were recorded in Aircraft Services logbook, the
logbook did not contain all of the information required by Aircraft Services Procurement
Guide. Specifically, the logbook used did not contain the dates the order was placed and
received or the quantity of items ordered, information that was needed by the cardholder and
the approving official to adequately certify that the cardholder’s statement was accurate.

Card Security
The Department’s “Handbook” (Section X) states that purchase cards should be safeguarded
in the same manner as cash. The Administrative Handbook (Section 8D) and the
Procurement Guide (Section 3.6) state that the cardholder is responsible for the proper use
and the safeguarding of the purchase card. However, we found that 19 of the 53 cardholders
in our sample were not properly safeguarding their purchase cards in that they kept their
cards in unlocked desks or file cabinets. The lack of security over purchase cards increases
the potential for cards to be lost or stolen or used for inappropriate purposes.

Oversight Reviews
The Department’s “Handbook” (Section XVI) and the Procurement Guide (540-2(7)) require
that credit card transactions be reviewed annually to ensure that the credit card is used
properly. The Administrative Handbook does not address this annual review requirement.
The program coordinator for the Office of Aircraft Services told us, in writing, that “to the
best of my knowledge my predecessor . . . , did not conduct any type of annual review.
However, a review will be conducted (by me) on FY [fiscal year] 97 transactions. This
review is scheduled to begin on 15 Ott 97.” However, this review was not performed. The
program coordinator for the Offtce of the Secretary told us that she manages the purchase
card program in addition to other responsibilities and therefore did not have the time to
perform the required review. Without the required oversight reviews, there was no assurance
that all items purchased were for valid Government purposes.

Recommendations

We recommend that the Assistant Secretary for Policy, Management and Budget:

     1. Ensure that approving offtcials follow the review procedures established by the
Department and their respective offices when reviewing cardholders’ statements.

     2. Ensure that cardholders’ statements are reviewed timely by the approving officials.

       3. NotifL the Rocky Mountain Bank that it should reduce the spending threshold of
all of the Office of Aircraft Services pilots to $2,500.

     4. Ensure that cardholders comply with purchase card policies and procedures
concerning unauthorized purchases, split purchases, and telephone orders.


                                              8
      5. Ensure that purchase cards are adequately safeguarded.

     6. Ensure that annual reviews of purchase card transactions are performed in
accordance with Departmental guidance.

Offke of the Secretary Response and Offke of Inspector General Reply

In a September 11, 1998, memorandum to the Office of Inspector General, the Director of
Administration, Offtce of the Secretary, said that he had requested the Director of Aircraft
Services and the Director of the Interior Service Center to provide a response to the draft
survey report on behalf of the Office of the Secretary.

In its September 16, 1998, response (Appendix 2) to our draft report, the Offke of Aircraft
Services concurred with all six of the recommendations and indicated that it had
implemented the recommendations. In its September 25,1998, response (Appendix 3) to the
draft report, the Interior Service Center concurred with the five recommendations (Nos. 1,
2,4,5, and 6) applicable to the Center and stated that corrective actions would be taken for
those recommendations. Although Aircraft Services and the Service Center concurred with
Recommendation 1 in the draft report, we revised Recommendation 1 to reflect the changes
as stated in the recently issued guidelines. These guidelines no longer require the approving
officials to certify their cardholders’ statements each month and state only that the approving
offkial should review cardholders’ transactions on-line. Since the monthly certification
requirement has been eliminated, we believe it is critical for the approving officials to
provide the required oversight and monitoring to ensure cardholders’ compliance with the
new guidelines and timely detection of misuse of the purchase card. Based on the responses,
we consider Recommendation 3 resolved and implemented and request that the Service
Center provide target dates and titles of the officials responsible for implementing
Recommendations 1,2,4,5, and 6 (see Appendix 6).

Aircraft Services and the Service Center also provided additional comments on information
presented in the report. Aircraft Services and the Service Center’s comments and our replies
to these comments are presented in Appendices 4 and 5, respectively.

In accordance with the Departmental Manual (360 DM 5.3), we are requesting a written
response to this report by May 7, 1999. The response should provide the information
requested in Appendix 6.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, the monetary impact of audit findings,
actions taken to implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the a&stance of Off& of the Secretary personnel in the conduct of our
survey.



                                              9
                                                                       APPENDIX 1


               OFFICES SELECTED FOR REVIEW
          FOR WHICH PURCHASE CARD SERVICES WERE
          PROVIDED BY THE OFFICE OF THE SECRETARY

Secretary’s Immediate Office
Assistant Secretary for Indian Affairs
Assistant Secretary for Fish and Wildlife and Parks
Assistant Secretary for Land and Minerals Management
Assistant Secretary for Water and Science
Assistant Secretary for Policy, Management and Budget
   Division of Space and Facilities Management (Now the Facilities and Management
     Service)
   Interior Service Center (Now the National Business Center)
   Offhze of Acquisition and Property Management
   Office of Policy Analysis
   Offlice of Budget
   Office of Information Resources Management
   Office of Managing Risk and Public Safety
   Office of Hearings and Appeals
   Office of Small and Disadvantaged Business Utilization
   Office of Aircraft Services
   Off%ze of Insular Affairs
   Offlice of Financial Management
   Of&e of Personnel
   Office of Environmental Policy and Compliance
   Office of Communications and Information Services
Office of the Solicitor
Office of Trust Funds Management
Advisory Council of Historic Preservation




                                         10
                                                                                        APPENDIX 2
                                                                                        Page 1 of 9



                     United States Department of the Interior
                                 OFFICE OF THE SECRETARY
                                  OFFICE OF AIRCRAFT SERVICES
                                          P.O. BOX 15428
                                     BOISE, IDAHO 83715-5428
                                                                                           In reply refer to:


                                                                                                502B



                                                                                September 16, 1998


                 Robert J. Williams
                 Assistant Inspector General for Audits




Subject:         Draft Survey Report on the Use of the Governmentwide Purchase Card,
                 Office of the Secretary (Assignment No. H-IN-OSS-00 l-97)

The Offrce of Aircraft Services offers the following comments on the recommendations contained
in the draft report dated August 6, 1998 addressed to the Assistant Secretary - Policy,
Management and Budget. Additional comments on the text of the report are attached.

Recommendation I

Ensure that approving officials follow the review procedures established by the Department and
their respective offices when certifying cardholders’ statements.



          Concur. A memorandum (copy enclosed) was sent to all cardholders and approving
off%cials to remind them of their responsibilities and to highlight those areas specifically
identified as weaknesses by the Inspector General’s audit. Compliance will be reviewed as part of
the program coordinator’s annual review.

Recommendation 2

Ensure that cardholders’ statements are reviewed timely by the approving officials.

           Remonse

        Concur. A memorandum was sent to all cardholders and approving officials to remind
them of their responsibilities and to highlight those areas specifically identified as weaknesses by
the Inspector General’s audit. Compliance will be reviewed as part of the program coordinator’s
annual review.




                                                   11
                                                                                          APPENDIX 2
                                                                                          Page 2 of 9




Recommendation 3

Notify the Rocky Mountain Bank to reduce all of the Office of Aircraft Services pilots’ spending
thresholds to S-2,500.

        ResDonse

         Concur. Aircraft Services requested that all pilot cardholder limits be reduced on
February 18,1998. A subsequent review of the March 1998 Business Account Summary
disclosed that the Bank had erroneously cancelled one cardholder’s account and had later
reactivated the account without making the requested adjustment. Rocky Mountain Bank has
been notified of the error, and the limit has been reduced.

Recommendation 4

Ensure that cardholders comply with purchase card policies and procedures concerning
unauthorized purchases, split purchases, and telephone orders.

        Response

         Concur. A memorandum was sent to all cardholders and approving officials to remind
them of their responsibilities and to highlight those areas specifically identified as weaknesses by
the Inspector General’s audit. Compliance will be reviewed as part of the program coordinator’s
annual review.

Recommendation 5

Ensure that purchase cards are adequately safeguarded.

         Remonse

        Concur. A memorandum was sent to all cardholders and approving officials to remind
them of their responsibilities and to highlight those areas specifically identified as weaknesses by
the Inspector General’s audit. Compliance will be reviewed as part of the program coordinator’s
annual review.

Recommendation 6

Ensure that annual reviews are performed in accordance with Departmental guidance.

         Response

        Concur. Aircraft Services’ program coordinator will conduct reviews annually, in
accordance with Departmental guidance. The FY 1998 purchase card review will begin
October 15, 1998.

If you have any questions or require additional information, please contact Kim Salwasser at
(208) 387-5758.

 Attachments




                                                    12
                                                                APPENDIX 2
                                                                Page 3 of 9




cc:   Director of Administration
      Director, Office of Acquisition and Property Management
      Director, Interior Service Center




                                             13
                                                                                          APPENDIX 2
                                                                                          Page 4 of 9




                Use of the Governmentwide Purchase Card
                            (H-IN-OSS-001-97)
The audit liaison officer compiled additional comments from Aircraft Services’ staff who
participated in this audit.

GENERAL COMMENTS
Although the Offtce of Aircraft Services concurs with the recommendations found in the audit
report, we are disappointed in the unproductive manner in which the findings wefe presented.
Specifically we object to the tone used throughout the report, misquotes of our staff, and
inaccuracies in the report. We brought the inaccuracies in the preliminary draft report to the
attention of the audit staff at the exit conference. However, the inaccuracies were still included in
the draft report. We believe that the incomplete information provided in the report misleads the
reader and is not representative of an objective reporting format.

In the past, Aircraft Services has had a cooperative and productive working relationship with the
Inspector General’s office. Previous audit staff had presented constructive recommendations and
observations to improve the efficiency and effectiveness of our program. However, the approach
used in this report to convey the minor compliance deficiencies found in oversight of the
Govemmentwide Purchase Card Program does not reflect the Inspector General’s role as an
“agent of positive change.” Rather, the approach impedes positive working relationships between
agencies and can undermine the integrity, credibility, professionalism, and objectivity of the
auditing organization.

Had the auditors taken the time to brief our staff and management on preliminary findings and
noted examples prior to departing the audit site, many of the inaccuracies could have been
resolved and supporting documentation that was either not located or not photocopied by the
auditors could have been provided. Aircraft Services has provided additional information below
on the examples and findings in the report to convey a more accurate and complete picture for the
reader.

Finally, we believe that the Inspector General’s office has overlooked positive program and
operational accomplishments that can be directly attributed to Aircraft Services’ implementation
of the Govemmentwide Purchase Card Program. The program, despite the compliance
deficiencies identified in this report, has been an overwhelming success. For instance, since our
implementation of the purchase card program in FY I990, there have been:

1) A noticeable reduction in the number of purchase orders required and in the number of
    payments processed, which enables our reduced staff to redirect attention to better serving
    our customers and our vendors;

2) A method to make payments quickly to small and disadvantaged businesses, which rely on
   customers to pay for services as they are provided; and

3) More timely completion of maintenance repairs on fleet aircraft, which results in better
   program support to Interior bureaus by enabling them to resume their law enforcement, fire
   suppression, and resource management activities more quickly.



                                                    14
                                                                                         APPENDIX 2
                                                                                         Page 5 of 9



SPECIFIC COMMENTS
Page 3. Results of Survev. The conclusion we’ve drawn from this paragraph is that although the
audit identified compliance deficiencies, the auditors did not identify any purchases that would
constitute fraud, waste, or abuse of Government resources or any funding that could have been
put to better use. In essence there was no monetary effect of the deficiencies identified.

Pape 4. first paramaph (2). We agree that the Department’s “Handbook” and the Aircraft
Services’ Procurement Guide require the approving official to “review all of the documentation.”
However, documentation is not limited to invoices or receipts. The June 28, 1990, “Handbook”
states that “Upon receipt of a monthly cardholder statemen& cardholders shall reconcile the
statement of account with their frarlsadion documenfation, cg. telephone logs, receipts, etc” In
addition, Aircraft Services’ Instruction 540-2, Use of Government-Wide Commercial Credit Card,
does not require vendor documentation. The instruction states that “when making credit card
purchases by telephone, the cardholder shall document the transaction on the ‘Record of
Telephone Credit Card Orders’ and request the vendor to forward the customer copy of the
purchase transaction slip and sales receipt. These documents, ifprovided, and any shipping
documents associated with the order shall be attached to the monthly cardholder ‘Statement of
Account.“’ The instruction also states that the approving official is responsible for “Assuring that
suooortintz documentation (e,g., invoice copies, customer copy of the credit card charge slip,
record of telephone credit card orders, evidence of competitive or non-competitive justification)
is attached to the monthly ‘Statement of Account’.” Although Aircraft Services would prefer to
have invoices and receipts for every telephoue order, vendors do not always provide them when
requested.

Rape 4, second paragraph, first sentence. Based on information provided by the auditors,
Aircraft Services accounted for 27 of these purchases with a value of $48,500. A review of these
purchases by Aircraft Services’ management identified only two transactions valued at $400 that
did not have supporting documentation attached to the cardholder’s statement. We did, however,
note that only one purchase included an invoice or receipt as part of the documentation. Instead,
the documentation included a combination of 1) a “Small Purchase Documentation Sheet”
(telephone log) completed by the cardholder at the time the order was placed; 2) a “Request,
Authorization, Agreement, and Certification of Training, Form SF1 82”; 3) packing slips either
with or without dollar values; 4) price quotation sheets provided from the vendor; and 5) the
requisition from the individual requesting the order be placed. Therefore, based on the criteria
cited in the report, we disagree with the auditors’ narrow definition of supporting documentation
and their refusal to accept anything but an invoice or receipt as support.

Page 4, last paragraph, first sentence. We wish to reiterate our comments provided on the
preliminary draft regarding these transactions. A review of the documentation by our
management confirmed our contention that all transactions had supporting documentation
attached. The auditors stated during the exit conference that they did not have support for these
transactions. Therefore we sent them one page of a three-page statement with supporting
documentation. We informed the auditors that we had sent only the one page because of the
length of the statement and the supporting documentation, but would send the additional two
pages if they so requested. When we did not receive any request from the auditors, we believed
that they were satisfied with the documentation provided.

 Page 4, last paramaph, second sentence. Again we wish to reiterate our comments provided
on the preliminary draft, as well as in previous discussions with the audit staff, regarding detailed



                                                  15
                                                                                           APPENDIX 2
                                                                                           Page 6 of 9



descriptions. The Bankcard System’s Cardholder Instructions states “Provide a complete
description of each item purchased on the ‘Description’ line, i/required by your agency.” The
Ofke of Aircraft Services’ Instruction 540-2, Use of Government-Wide Commercial Credit
Card, states that the cardholder will “provide a description@ each purchase”; however, it does
not require a complete description of each item purchased. Because of the short length of the
description line provided and the detail normally required to have the description be meaningful,
the cardholder has assigned a unique “call number” to each credit card purchase and included it as
the description on the cardholder statement. This unique “call number” corresponds directly to
the purchase documentation so it may be easily identified and retrieved. Aircraft Services’
management believes this sufficiently describes the purchase, efficiently directs the cardholder to
necessary documentation, and adequately coqplies with the requirement.

Pace 5. first Daracrauh. last sentence. This statement neglects to inform the reader that the
approving official has on/y one cardholder assigned for her review. If the purpose of reviewing
the Business Account Summary is to “ensure that all cardholders have submitted their
statements,” we fail to see the purpose of this approving official’s review of the Business Account
Summary when the only statement she will receive has been reviewed prior lo receipt of the
summary. In addition, there is no requirement that the approving official review the Business
Account Summary. The Bankcard System’s Approving Officials Instructions states “The
cardholders’ Statement of Account may be compared to the listing of cardholder accounts on the
Approving Off~cial’s consolidated statement to ensure that ail cardholder activity is accounted
for.” Aircraft Services’ management agrees that such a review is an important internal control
procedure that should be done when the approving official has a significant number of
cardholders whom they are responsible for reviewing. However, this situation does not warrant
such a review.

Pape 5. second naraprauh. We disagree with the conclusion drawn from this failed attempt to
clarify the situation and circumstances. After many discussions with the auditors and numerous
written statements, we can only conclude that the confusion with this credit card purchase stems
from the auditors’ lack of understanding of the concept of “mobilization expenses.” As
previously defined in our June 8, 1998, correspondence to the auditor, mobilization costs
“typically encompass all costs associated with readying and transporting personnel and equipment
from the vendor’s place of operations to the Government’s designated base.” Aircraft Services
requested a substitute aircraft and pilot be mobilized because the contractor hired under the long-
term contract to perform the services did not appear to be able to meet the contract start date.
While the substitute aircraft and pilot were en route from Greybull, Wyoming (the contractor’s
place of operations), to Chamberline, South Dakota (the Government’s designated base), the
original contractor hired to perform the services came “on-line” and Aircraft Services cancelled
the substitute aircraft and pilot. That is why the vendor stated in his letter “The job I almost did.”
The cardholder paid the mobilization expenses of $653.79 based on the invoice received from the
vendor. After the exit conference and the continued questions from the auditors regarding this
purchase, the approving official contacted the vendor’s accountant on July 16, 1998. The
accountant confirmed that the invoice represented the cost incurred by the vendor to move a pilot
from Greybull, Wyoming, to the point where he was released by Aircraft Services, en route to the
designated base in Chamberline, South Dakota. The release by Aircraft Services was made after
the vendor had incurred expenses. Although no “services” were provided, the vendor’s expenses
were justified, reasonable, and authorized by the Chief, Acquisition Management. We fail to
understand the auditor’s confusion with this purchase. The situation is no different from a
Government employee being sent on temporary duty to another location and, en route to that
location, the employee is called back by the employing office. The Government employee is



                                                    16
                                                                                           APPENDIX 2
                                                                                           Page 7 of 9



entitled to reimbursement of wages and applicable travel expenses, even though no job was
actually performed.

Pape 5. last naraeranh, sentences one throuph four. We disagree with the auditor’s claim that
no invoice was on file at the time of their visit. The invoice our staff sent was date stamped as
received by the finance office on February 18, 1997, and was attached to the cardholder
statement, along with the charge slip and the unsigned, undated letter prepared by the approving
official. The documents were provided after the exit conference, during which the auditors stated
that they did not have supporting documents for the purchase. However, based on the fact that
the auditors did have a copy of the approving offtcial’s letter to compare with the subsequent copy
we provided, we believe the auditors overlooked the invoice or neglected to copy it during their
visit. Had the auditors informed us about their inability to locate the invoice during their visit, the
approving official could have gone to the files with the auditors and shown them these
documents. The copy of the approving offtcial’s letter was signed and dated at the time the
documents were forwarded to the auditors, so the auditors could identify who had written the
letter and the approximate date the information was documented. The date was based on three
phone conversations logged by the approving offtcial on February 11,1997; February 19, 1997;
and March 4, 1997. These discussions took place between the approving official and the
cardholder or his employing agency, prior to and after the cardholder transferred to another
federal agency. The cardholder signed the charge slip approving the repairs, but was unavailable
to sign the cardholder statement because he was no longer employed by the agency at the time the
statement was received. Instead, the approving official attached a letter to the cardholder’s
statement that described the circumstances and signed the statement as the approving official.

Page 5. last paragraph, last sentence continued to Page 6. The auditor, paraphrasing the
approving official, made this statement. The approving official stated that choices had to be
made between paying interest (under the prompt payment act) on $50,000 contract payments or
reconciling statements that were already paid and were not accumulating interest charges. In
addition, the auditor was told that review of cardholder statements was not as high a priority
because the pilots have been conscientious with the use of their purchase cards and the risk of
abuse was considered minimal. Furthermore, the auditors were told that, although Aircraft
Services had been delayed since July 1997, a position had been filled September 14, 1997, to
reduce the backlog.

Pave 6. first paragraph, sentences one and two. The annual inspection cost was $961.80. The
amount quoted in the report included labor, but did not include applicable parts. The statement of
circumstances is also inaccurate. The approving official told the auditors that, as is normal while
performing the annual inspection, the vendor noted discrepancies required to be corrected for
airworthiness. As the vendor was correcting the noted discrepancies, extensive airframe
corrosion was found, which would also need to be corrected to maintain FAA airworthiness.
Upon notification from the vendor of the corrosion found, Aircraft Services determined that it
would not be cost effective to incur an additional S 16,000 expense to repair the damage. At that
time, the vendor was reimbursed for the discrepancies corrected prior to discovering extensive
corrosion ($3,127.34), and the aircraft was so_ld through a sealed bid process.

Pape  6, first paraeraph, sentence four. The approving offtcial denies ever making this
statement. The approving official did say that she should have been notified when the $2,500
purchase limit was exceeded, but never said thepilot had been a problem in the past.

Pape 6, last two sentences. As stated at the exit conference, Aircraft  Services requested that all
pilot cardholder limits be reduced on February 18, 1998, after official notification of denial was


                                                    17
                                                                                         APPENDIX 2
                                                                                         Page 8 of 9




received. However, a review was performed of the approving official’s March 1998 Business
Account Summary (copy enclosed), which showed that all pilots were reduced to the $2,500
single purchase limit except one. Further review disclosed that Rocky Mountain Bank had
erroneously cancelled the cardholder’s account, and later reactivated the account without making
the requested adjustment (refer to enclosed copy of program coordinato+s request). Rocky
Mountain Bank has been notified of the error, and the limit has been reduced.

Paee 6. fourth oaraerauh. The statement “in order to stay within the $2,500 threshold” does not
correspond to the example given for Aircraft Services, which was a $25,000 threshold.

Page 7. second uaragrauh. sentences four throwh eight. We disagree with the inferences
drawn from the combination of independent facts cited in this paragraph. Although AircrafI
Services agrees that the cardholder’s single purchase limit was inadvertently exceeded, the
circumstances surrounding the purchase demonstrate that it was not a “split purchase”. A “split
purchase” by definition is the intentional “breaking down of the [purchase] requirements
aggregating more than the simplified or micro-purchase threshold into severalpurchases that are
less than the applicable threshold”. In this example, the cardholder is also a warranted
contracting officer for up to $100,000 and had been told when hired, and erroneously believed,
that her single purchase threshold was at $75,000. The cardholder placed one telephone order
with the vendor for $3 1,974. It would have been illegal for the vendor to charge the total amount
prior to shipment of the goods. However, the vendor made three different shipments of these
goods on three different days, and the vendor was justified and allowed to charge the purchase
card as the goods were shipped. The vendor did not intentionally “split” the purchase for the
purpose of charging the card; otherwise, only two transactions would have been necessary.
Incidentally, by charging the goods as shipped, the charges did not exceed the cardholders’ single
purchase limit. Had the goods been shipped all on the same day, the $25,000 single purchase
threshold would have been brought to the attention of the cardholder, and the purchase would
have been paid for using another form of payment. In September 1997 after the auditors brought
this purchase to the cardholder’s attention, the single purchase threshold was increased from
$25,000 to $100,000.

Pace 7, third uaraerauh, sixth sentence. Based on information provided by the auditors,
Aircraft Services accounted for 72 of the purchases with a value of $92,000. A review of these
purchases, by Aircraft Services’ management, identified 25 purchases valued at $9,500 for which
telephone logs were not kept or attached as supporting documentation. The remaining 47
purchases valued at $82,500 were detailed in the cardholder’s “Visa Charge Log,” which is
maintained for all purchases, and on the “Small Purchase Documentation Sheet.,” which was
prepared by the cardholder at the time the order was placed and attached to the cardholder’s
statement as supporting documentation. We believe that although these documents are not
formally referred to as a “telephone logbook,” they adequately document the necessary
information and fulfill the “logbook” requirement for telephone orders.

Pace 7. third uaraw-anh, last sentence. Aircraft Services disagrees with the conclusion drawn
by your audit staff. The use of a telephone logbook will not prevent cardholders from making
personal charges on the card nor will a logbook ensure that cardholders do not exceed their
purchase limits. The cardholders’ honesty and integrity are solely responsible for preventing
misuse of the purchase card.

Page 8. first paragraph, sentences three thruuph six. These statements were not included in
the preliminary draft; therefore, we were unable to make comments at the exit conference. The
program coordinator did not conduct a formally documented review because we did not believe it


                                                    18
                                                                                          APPENDIX 2
                                                                                          Page 9 of 9




would be an efficient or effective use of time to review information already audited by the
Inspector General’s office. Instead, the program coordinator held discussions with each
approving official to review overall findings communicated by the audit staffwhile performing
the audit in September 1997. It was our opinion that we would be more effective if we began
correcting the deficiencies rather than waiting over 1 year until your audit report is issued. An
annual review will begin October 15, 1998, for credit card purchases made in FY 1998, and the
program coordinator will formally document the findings of the review.

Page 8, first paraeraph, last sentence. We disagree with the conclusion of your auditors that
without the reviews “there was little assurance that all items purchased were for valid
Government purposes.” The reviews are conducted to determine that “authorized procedures” are
followed, not to judge the validity of a purchase. Decisions on the appropriateness of a purchase
are the approving official’s responsibility. The approving official has a better understanding of
the program and reviews each credit card statement, certif?iing under the cardholder certification
statement that “to the best of my knowledge and belief, all of my statements are true, correct,
complete and made in good faith, and subject to title 18 US Code, Section 1001.”

Pave 8, third paraw-auh. Although we concurred with the audit recommendations, we fail to
understand how the auditors could have concluded from the exit conference that OffIce of
Aircraft Services’ officials “generally concurred with the report’s findings.”

Appendix. In order to give the reader a better perspective of the program usage, it would be
helpful to provide a separate appendix detailing the results of your audit by office. For instance, it
would be useful to know, by office, 1) the total number and dollar value of the purchases made;
2) the number and dollar value of the purchases reviewed by your offlice; and 3) the number of
deficiencies noted by your offlice for the attributes reviewed. The Office of Aircraft Services has
to the fullest extent possible implemented the Govemmentwide Purchase Card Program.
Specifically, for the period October 1996 through July 1997, Aircraft Services accounted for
2,664 (40 percent) of the 6,650 purchases made and $1 million (40 percent) of the $2.5 million
spent by the Office of the Secretary. In contrast, the other 24 ofices listed in the appendix may
have had little to no implementation of the Govemmentwide Purchase Card Program.
Consequently, we believe that Aircraft Services has been unfairly penalized in the report because
of its aggressive implementation.

In conclusion, the OffIce of Aircraft Services‘does not believe that this report fairly presents its
implementation of the Govemmentwide Purchase Card Program. The auditors failed to present a
balanced report by emphasizing only the minor compliance deficiencies identified and ignoring
all positive outcomes of this program. As stated before, the manner and tone in which this report
has been written is not in keeping with the Inspector General’s goal of being “an agent of positive
change.”




                                                    19
                                                                                       APPENDIX 3
                                                                                       Page 1 of 4

                      United States Department of the Interior
                                       OFFICE OF THE SECRETARY
                                          Washington, D.C. 20240




Memorandum

To:               Assistant Inspector for Audits
                  Office ofInspector General 1 , fl 11

From:


Subject:          Draft Survey Report Entitled, “Use of the Governmentwide Purchase Card Office
                  of the Secretary”

The Interior Service Center (ISC) is resubmitting its September 18, 1998, response to the
August 6,1998, draft Offtce of Inspector General (OIG) survey report. This response now
conforms to the format requested by Mr. Bill Dolan of your office. It also includes clarification
of our general comments made in paragraph 1 of our September 18,1998, response. We are
submitting this amended response in advance of the September 28,1998, deadline imposed by
Mr. Dolan.

We reviewed the August 6, 1998, draf? survey report to the Assistant Secretary - Policy,
Management and Budget. Essentially, we could not determine from the report whether the
Office of the Secretary (OS), and specifically the purchase cards controlled by the ISC, were
non-compliant with any internal controls related to bank card use per departmental regulation, or
if there was a deficiency with respect to the level of our oversight provided. The draft report and
the debrief provided were too broad to agree with the general statements made in the section
entitled, “Scope of the Survey,” of page 2, paragraph 3.

Moreover, we cannot concur with the alleged weaknesses noted in the report nor with questions
surrounding the adequacy of our oversight because some important basic facts about the ISC’s
purchase card program were not correctly reflected in the report. These discrepancies are noted
below.

.          The report cited there are 1,440 cardholders within the Office. In actuality, the ISC is
           currently responsible for approximately 300 purchase cards and the Office of Aircmft
           Services (OAS) maintains responsibility for less than 100 cards. In short, there are only
           approximately 400 cards issued for the Office of the Secretary, and only 300 actually
           controlled by the ISC.




                                                   20
                                                                                    APPENDIX 3
                                                                                    Page 2 of 4



                                                -2-


       Moreover, the report stated that these 1,440 cardholders within the Office generated 6650
       transactions. For the record, our reports show an average of approximately 225
       transactions per month in the ISC over the period of May, 1997, to May, 1998, for a total
       of approximately 2700 transactions. Even if the OAS also had 2700 transactions from its
        100 cardholders, a total of 5400 transactions is still significantly less than the 6650
       transactions cited in the report.

These discrepancies bring into question the validity of the 796 sample transactions which were
reviewed in the survey and the 192 transactions which were alleged to be faulty (resulting in an
error rate of approximately 25%). Also, it is important to note that of the examples of faulty
transactions provided in the report, only six (listed on page 4, paragraphs 3 and 4) were directly
controlled by the ISC purchase card program. These few examples do not support the 25% error
rate alleged in the report. All 796 sample transactions need to be examined closely to determine
which ones were, in fact, the responsibility of the ISC. Only after this reconciliation of data can
a judgment be made as to the strength of our purchase card program and the adequacy of our
oversight.

Also, we recommend consideration be given to including the OIG in fUure audits, or at a
minimum, having a subaudit conducted by an independent team to preserve the integrity of the
overall audit. The OIG has a $50K warrant authority and the purchases made by your office
contribute a significant percentage to the total purchase card dollars within the ISC.

In regards to the recommendations of page 8, the ISC takes no issue with items 1,2,4, 5, and 6
because of their general nature and the fact that we fully support all actions that assure the
continued compliance with the rules and regulations governing the use of purchase cards. The
following will specifically address each recommendation:

Recommendation # 1

Ensure that approving officials (AOs) follow the review procedures established by the
Department and their respective offices when certifying cardholders statements.

       Response

       Concur. The APC will reinforce with all approving officials in the ISC the need
       to understand and follow all duties of an approving official. This will also be
       discussed with the AOs (or with the new reviewing offkials, if appropriate) when
       new procedures are developed during the migration to the new bank card
       company, NationsBank. Compliance will also be considered as part of the annual
       review which will take place after migration to the bank card program with
       NationsBank.




                                                21
                                                                                   APPENDIX 3
                                                                                   Page 3 of 4



                                               -3-


Recommendation # 2

Ensure that cardholder’s statements are reviewed timely by the approving officials.

       Response

       Concur. See response for recommendation # 1.


Recommendation #3

Notify the Rocky Mountain Bank to reduce all of the OAS pilots’ spending threshold to $2500.

       Resnonse

       Specific recommendation for the OAS, not applicable to the ISC.


Recommendation #4

Ensure the cardholders comply with purchase card policies and procedures concerning
unauthorized purchases, split purchases and telephone orders.

       Resnonse

       Concur. The APC will continue to spot check transactions, along with the AOs,
       to assure compliance with proper purchasing rules and regulations. This area will
       also be included as part of the annual review which will be conducted after the
       migration to the new bank card program. Any problems identified will be
       researched and appropriate action taken to correct any deficiencies that are found.


Recommendation #5

Ensure purchase cards are adequately safeguarded.

        ResDonse

        Concur. Procedures to safeguard purchase cards will be reviewed with all
        cardholders.




                                               22
                                                                              APPENDIX 3
                                                                              Page 4 of 4




                                              -4-


Recommendation #6

Ensure the annual reviews are pcrformtd in accordance with Departmental guidance.



       Concur. The A.PC wit1 conduct an annual review in accordance with
       Dcpammntai guidance after migration to the new bank card program has occumd
       in November, 1998.


If you have any questions, please call Mt. John Nyce at (202) 208-3932.




cc: Debra Sonderman




                                              23
                                                                                 APPENDIX 4
                                                                                  Page 1 of 10

            OFFICE OF AIRCRAFT SERVICES COMMENTS
           AND OFFICE OF INSPECTOR GENERAL REPLIES
In its September 16, 1998, response, the Office of Aircraft Services presented additional
comments on the audit report. Aircraft Services comments and our replies are presented in
the paragraphs that follow.

      Offke of Aircraft Services Comments. Aircraft Services said that it “object[ed] to
the tone used throughout the report, misquotes of our [Aircraft Services] staff, and
inaccuracies in the report.” Aircraft Services also stated that although these “inaccuracies”
were brought to our attention at the exit conference, they were still included in the draft
report.

      Office of Inspector General Reply. We believe that our report is objective, as
required by the “Government Auditing Standards,” issued by the Comptroller General.
Specifically, our report is balanced in content and tone as it presents our findings on Aircraft
Services compliance with regulations and procedures for use of the Government purchase
card. Although Aircraft Services did not identify the quotes it considered to be in error, the
quotes relating to Aircraft Services staff were contained in documents written by those
individuals or were made by those individuals during interviews which were attended by
usually two Office of Inspector General staff and documented in the working papers.

Regarding “inaccuracies” in the preliminary draft report, Aircraft Services provided us with
approximately 63 documents subsequent to our field visit. The majority of the documents,
which consisted of purchase card statements, invoices, requisitions, business account
summaries, and packing slips, were already in our files. When the additional documents
provided adequate support for the purchases, we made changes to the draft report as
appropriate. However, the remaining documentation did not support that information in the
report was inaccurate.

      Of&e of Aircraft Services Comments. Aircraft Services stated that “the approach
used in this [our] report to convey the minor compliance deficiencies found in [Aircraft
Services] oversight of the Governmentwide Purchase Card Program does not reflect the
Inspector General’s role as an ‘agent of positive change.“’ Aircraft Services further stated
that the “approach impedes positive working relationships” and could “undermine the
integrity, credibility, professionalism, and objectivity of the auditing organization.”

     Of&e of Inspector General Reply. We disagree that the compliance deficiencies
were “minor.” As stated in the report (pages 3 and 4), we found that approving officials and
cardholders did not follow the established regulations and guidelines for 192 ($142,446) of
the 796 ($413,508) transactions, which represents 24 percent of the transactions and
34 percent of the value of the purchases reviewed. In our opinion, the report does reflect the
Inspector General’s role as an “agent of positive change” in that it reports areas where

                                              24
                                                                                 APPENDIX 4
                                                                                  Page2oflO

controls are not adequate or not followed, as indicated by the Office of the Secretary’s
acceptance of all six of the report’s recommendations.

      Offke of Aircraft Services Comment. Aircraft Services stated, “Had the auditors
taken the time to brief our staff and management on preliminary findings and noted examples
prior to departing the audit site, many of the inaccuracies could have been resolved . . . .”

      Offke of Inspector General Reply. All deficiencies noted during our review were
discussed with each of the applicable cardholders and approving officials prior to our
departing the audit site. In addition, a copy of our preliminary draft report was provided to
the O&e of Aircraft Services prior to our June 30, 1998, exit conference. When additional
information was provided, we changed the report as appropriate. The preliminary dr& is
provided to management as an opportunity to address identified weaknesses before a draf?
report is issued. However, some of the documentation provided, such as purchase card
statements, requisitions, packing slips, and other internally prepared documents, were
already in our files and did not support Aircraft Service’s statement that information in the
report was inaccurate.

       Offlce of Aircraft Services Comment. Aircraft Services stated that we “overlooked
positive program and operational accomplishments that can be directly attributed to Aircraft
Services’ implementation of the Governmentwide Purchase Card Program.“ Aircraft
Services stated that these accomplishments included “[a] noticeable reduction in. . . purchase
orders required and _ . . payments processed,” ” [a] method to make payments quickly to small
and disadvantaged businesses,” and “[mlore timely completion of maintenance repairs on
fleet aircraft.”

      Office of Inspector General Reply. As stated in our report (Prior Audit Coverage
section), the General Accounting Office recently issued a report on the use of the purchase
card that stated, “Agencies have found they can support their missions at reduced costs by
having program staff use the purchase card.” Since the General Accounting Office addressed
the benefits of using the purchase card, we did not believe that a similar review was
warranted. Furthermore, Aircraft Services did not provide any details supporting its
statements on the accomplishments cited during the audit, at the exit conference, or in the
response to the draft report.

      Offke of Aircraft Services Comment. Aircraft Services stated that although our
review “identified compliance deficiencies, . . . [it] did not identify any purchases that would
constitute fraud, waste or abuse of Government resources or any funding that could have
been put to better use. In essence, there was no monetary effect of the deficiencies
identified.”

     Office of Inspector General Reply. Any purchases in which fraud or abuse was
suspected would not have heen specifically identified in the report but would have been

                                              25
                                                                                  APPENDIX 4
                                                                                   Page 3 of 10

referred for further review to the Assistant Inspector General for Investigations. We referred
one such purchase to Investigations for review. Although the report did not identify any
funding that could have been put to better use, we believe, based on the deficiencies
identified in the report, that the Office of the Secretary did not have reasonable assurance that
the improper use of the purchase cards would be prevented or detected in a timely manner.
Further, the purpose of an audit is to identify internal controls that are inadequate or controls
that are not being followed so that the potential for fraud, waste, and abuse is minimized.

      Offke of Aircraft Services Comment. Aircraft Services stated that it agrees that
approving officials should review all of the documentation but that the documentation “is not
limited to invoices or receipts.”

      Offke of Inspector General Reply. During our review of individual purchases, we
accepted not only vendor invoices and receipts but also charge slips and any other documents
from the vendor that contained a description of the item and the amount charged.

       Office of Aircraft Services Comments. Aircraft Services stated that its office
accounted for 27 of the 192 purchases identified in the report for which the cardholders’
statements were not certified by the approving official or were certified without adequate
documentation. However, Aircraft Services stated that its own review identified only two
transactions which did not have supporting documentation. Aircraft Services further stated
that while only one purchase included an invoice or a receipt as part of the cardholder’s
statement, the documentation for the other transactions “included a combination of 1) a
‘Small Purchase Documentation Sheet’ . , . ; 2) a ‘Request, Authorization, Agreement, and
Certification of Training, Form SF1 82’; 3) packing slips either with or without dollar values;
4) price quotation sheets provided from the vendor; and 5) the requisition from the individual
requesting the order be placed.” Aircraft Services stated that it disagreed with our “narrow
definition of supporting documentation” and our “refusal to accept anything but an invoice
or receipt as support.”

      Office of Inspector General Reply. While the documents cited by Aircraft Services
were attached to the cardholders’ statements, we determined that only documents obtained
from the vendor which included a description of the item purchased and the amount charged
provided assurance that the items listed on the statements and the prices paid were valid. The
documents cited were primarily requests for services and not evidence of the receipt of such.
As previously stated, we did accept packing slips from vendors as adequate support if they
included a description of the item and the price.

       Offke of Aircraft Services Comments. Aircrafi Services stated that it had provided
us with supporting documentation as a result of a statement made at the exit conference that
some transactions did not have supporting documents. Aircraft Services also stated that it
sent “one page of a three-page [cardholder’s] statement with supporting documentation” and
that it “informed the auditors that . . . [it] had sent only the one page because of the length

                                               26
                                                                                APPENDIX 4
                                                                                 Page 4 of 10

of the statement and the supporting documentation.” Aircraft Services also said that it would
“send the additional pages” if requested. Aircraft Services further stated that because it did
not receive an additional request for information, it “believed that . . . [the auditors] were
satisfied with the documentation provided.”

      Office of Inspector General Reply. We did not request additional documentation
because all of the documents provided with the first page and the “supporting
documentation” for the other two pages were obtained during the audit, and copies were
included in our files. The 32 documents provided included the first page of the cardholder’s
statement, invoices, requisitions, requests for training, and other internally prepared
documents. All copies of invoices or other vendor documents provided by Aircraft Services
that included a description of items purchased and the price were considered adequate
support and were already in our files. The documents provided by Aircraft Services that
were not in our files supported that the goods or services had been requested but not that they
had been received.

       Office of Aircraft Services Comments. Aircraft Services stated that although its
Instruction 540-2 requires that cardholders provide a description for each purchase on the
cardholder’s statement, it does not require a complete description of each item purchased.
Aircraft Services further stated, “Because of the short length of the description line provided
and the detail normally required to have the description be meaningful, the cardholder has
assigned a unique ‘call number’ to each credit card purchase and included it as the
description on the cardholder statement.” According to the response, the call number
“corresponds directly to the purchase documentation so it may be easily identified and
retrieved. ”

      Offke of Inspector General Reply. We agree that Instruction 540-2 requires a
description of the purchase and not a complete description of each item, and we did not
suggest in the report that a lengthy description of each item be included on the cardholders’
statements. However, in the case where the cardholder’s statement contained acall number,
the statement did not identify the items purchased. We did not take exception to the use of
a single word to describe purchases, such as computer, printer, software, fuel, aircraft
maintenance, and training. The description for all ofthe items purchased on the cardholder’s
statement identified in the report would have fit in the space allotted on the statement.

      Office of Aircraft Services Comments. Aircraft Services took exception to the
statement in the report that “the approving official told us that she does not review the
Business Account Summary because it generally arrives about 5 days after she has reviewed
the cardholder’s statement,” stating that this statement “did not inform the reader that the
approving official has onfy onecardholder assigned for her review.” Aircraft Services stated,
“[Wje fail to see the purpose of this approving official’s review of the Business Account
Summary when the only statement she will receive has been reviewed prior to receipt of the
SUmmary.”



                                              27
                                                                                 APPENDIX 4
                                                                                  Page 5 of 10

       Of&e of Inspector General Reply. Regardless of the number of cardholders assigned
to an approving official, the review of the cardholder’s statement and the Business Account
Summary is the only internal control procedure that will result in the timely detection of the
misuse of the purchase card. The timely detection of purchase card misuse is as important
for one cardholder as it is for 20 cardholders. One of the purposes of reviewing the
Summary is to determine whether the name of the vendor and the amount of purchases on
the cardholder’s statement agree with the information in the Summary. The approving
official stated during an interview with the auditors that she does not review the Summary.
In our opinion, she would therefore not detect whether the cardholder had altered the
cardholder’s statements to conceal misuse of the card. In addition, Section IV of the
Department’s “Handbook” states that approving officials are responsible for performing a
monthly reconciliation of each cardholder’s statement with the monthly Summary.

      Of&e of Aircraft Services Comments. Aircraft Services stated that, regarding the
example of the $654 charge for helicopter services, it “disagree[d] with the conclusion
drawn from this failed attempt to clarify the situation and circumstances.” Aircraft Services
further stated, “After many discussions with the auditors and numerous written statements,
we can only conclude that the confusion with this credit card purchase stems from the
auditors’ lack of understanding of the concept of ‘mobilization expenses.“‘ Aircraft
Services also stated, “As previously defined in. . . [Aircraft Services] . . . correspondence to
the auditor, mobilization costs ‘typically encompass all costs associated with readying and
transporting personnel and equipment from the vendor’s place of operations to the
Government’s designated base.“’ Aircraft Services fiuther stated that the approving official
contacted the vendor’s accountant on July 16,1998, and that the accountant confirmed that
the “invoice represented the cost incurred by the vendor to move a pilot from Greybull,
Wyoming, to the point where he was released by Aircraft Services en route to the designated
base in Chamberlin, South Dakota.” Aircraft Services also stated that the release “was made
after the vendor had incurred expenses.”

       Offke of Inspector General Reply. We do not agree that the conclusions in the report
concerning this transaction were “drawn from this failed attempt to clarify the situation and
circumstances.” Instead, the report illustrates the conflicting information received from the
cardholder, the approving official, and the vendor concerning the circumstances of this
transaction. After receiving conflicting information concerning the $654 charge from the
cardholder and the approving official, we contacted the vendor on July 17 and July 20,1998,
to clarify this transaction. The vendor said that he did not fly his aircraft to the Offrce of
Aircraft Services location prior to receiving Aircraft Services cancellation notice but that in
anticipation of performing this work for Aircraft Services, he hired another pilot to provide
aircraft services to his other clients. According to the vendor, the hired pilot flew his private
airplane from Glendike, Montana, to the vendor’s location in Greybull. Neither the vendor
nor the hired pilot incurred any expenses flying their aircrafts to Chamberlin.




                                               28
                                                                                  APPENDIX 4
                                                                                   Page6oflO

       Office of Aircraft Services Comments. Aircraft Services stated that it disagrees with
the statement in the report that no invoice was on file at the time of the review and stated that
the invoice was attached to the cardholder’s statement. Aircraft Services also stated that had
the auditor informed that office about the missing invoice, the approving official “could have
gone to the files with the auditors and shown them” the invoice. Aircraft Services also
commented on a statement in the draft report concerning an unsigned document in the files,
stating that the cardholder was unable to sign the document because “he was no longer
employed by the agency.” The approving official further stated that she signed the
cardholder’s name on the document and backdated the document “so that the auditors could
identify who had written the document and the approximate date the information was
documented.”

      Office of Inspector General Reply. All deficiencies pertaining to the files, including
the lack of an invoice in the file, were discussed with the approving official at the time of our
audit at the Ofice of Aircraft Services in Boise, and those discussions were documented in
the working papers. We have deleted reference to the backdated document in our report
because the document did not directly relate to our finding.

       Offke of Aircraft Services Comments. Regarding the statement in the report that the
approving official told us that since she was the only approving official for the 50 pilots,
most of her statements were signed late because of “higher priority duties and lack of time
to accomplish all tasks,” Aircraft Services stated that the “auditor, paraphrasing the
approving official, made this statement.” Aircraft Services further stated that the approving
official said that “choices had to be made between paying interest . . . on $50,000 contract
payments or reconciling statements that were already paid and were not accumulating interest
charges.” Aircraft Services also stated that the approving officials told the auditor that
“review of cardholder statements was not as high a priority because the pilots have been
conscientious with the use of their purchase cards and the risk of abuse was considered
minimal.”

       Office of Inspector General Reply. The statement quoted in the report was based on
notes taken during our interview with the approving official. During this interview, the
approving official did not discuss paying interest on $50,000 contract payments or the fact
that the pilots had been conscientious with the use of their purchase cards. Also, we would
be concerned that “$50,000 contract payments” would cause a 2- to 4-month delay in
approving cardholders’ statements. However, we have revised the report to include the
additional comments pertaining to the approving official.

      Office of Aircraft Services Comments. Aircraft Services stated that the annual
inspection cost was $961.80 and that the amount quoted in the report ($765) included only
labor and not parts. Aircraft Services also stated that the statement in the report concerning
the circumstances of this transaction was “also inaccurate.”


                                               29
                                                                                 APPENDIX 4
                                                                                  Page7oflO

       Offke of Inspector General Reply. We disagree that the circumstances of this
transaction were described in the report inaccurately. This information was included in the
report to emphasize that the cardholder should have notified the approving offtcial once the
estimated cost of the repairs exceeded the pilot’s $2,500 single purchase limit. According
to the documentation provided in the purchase card file, the total cost of the inspection and
all repairs was $4,089, which consisted of $765 to perform the basic inspection and $3,324
for labor and parts to make repairs that were necessary for Federal Aviation Administration
certification. The $196.80 ($961.80 minus $765.00) for parts cited in Aircraft Services
comments is included in the $4,089 that was charged to the purchase card.

      Offke of Aircraft Services Comment. Aircraft Services stated that the approving
official did say that she should have been notified when the $2,500 purchase limit was
exceeded but that she “never said that the pilot had been a problem in the past.”

     Office of Inspector General Reply. The statement made by the approving offrcial was
documented in writing during an interview with the auditors.

      Office of Aircraft Services Comments. Aircraft Services stated that it had requested
that all pilot cardholder limits be reduced on February 18, 1998, after offtcial notification of
denial was received. Aircraft Services further stated that “a review was performed of the
approving official’s March 1998 Business Account Summary,” which showed that the limits
had been reduced for all but one of the pilots. Aircraft Services also stated that Rocky
Mountain Bank had been notified of the error and that the limit had been reduced.

     Office of Inspector General Reply. Aircraft Services notification to the Bank to
reduce the pilots’ limit should resolve this deficiency.

      Offke of Aircraft Services Comment. Aircraft Services stated that the report’s
statement that purchases were split “‘in order to stay within the $2,500 threshold’ does not
correspond to the example given for Aircraft Services, which was a $25,000 threshold.”

      Offke of Inspector General Reply. We agree that the threshold for some cardholders
exceeds $2,500, including the cardholder cited in the example. Therefore, we have changed
the report (page 7) to read “within the single purchase threshold.”

      Office of Aircraft Services Comments. Aircraft Services stated that it “disagree[d]
with the inferences drawn from the facts cited” regarding split purchases. Aircraft Services
further stated that it “agrees that the cardholder’s single purchase limit was inadvertently
exceeded” but that the cardholder is also a warranted contracting officer with warrant
authority of $100,000 and that the cardholder had been told and “erroneously believed” that
her single purchase threshold was $75,000. Aircraft Services also stated, “The cardholder
placed one telephone order with the vendor for $3 1,974. It would have been illegal for the
vendor to charge the total amount prior to shipment of the goods.” Aircraft Services further

                                              30
                                                                               APPENDIX 4
                                                                                Page 8 of 10

stated that since the vendor shipped the goods on three different days, the charges did not
exceed the cardholder’s single purchase limit. Aircraft Services stated that had all of the
goods been shipped on the same day, the $25,000 single purchase threshold would have been
brought to the attention of the cardholder. Aircraft Services further stated that after this
purchase was brought to the cardholder’s attention by the auditors, the threshold was
increased to $100,000.

      Offke of Inspector General Reply. When an employee is designated as a cardholder,
the bank mails a purchase card to the cardholder. Ln order to activate the card for use, the
cardholder must provide the bank with the single purchase limit, the 30&y purchase limit,
and any merchant category code restrictions. In addition, the single purchase and 30&y
purchase limits are printed on cardholders’ monthly statements. Therefore, the cardholder
should have been aware that her single purchase threshold was only $25,000. The fact that
the cardholder has warrant authority of $100,000 does not automatically supersede the limit
established by Aircraft Services for this individual’s purchase card. As stated in the report,
the cardholder should not have charged the purchase to her credit card. The purchase should
have been made using a different procurement method. Although the cardholder exceeded
her single purchase threshold, we agree that the purchase was technically not a split order.
Therefore, we have deleted this example from the report.

      Offke of Aircraft Services Comments. Regarding our finding that cardholders did
not maintain a logbook for 433 telephone purchases, Aircraft Services stated that of the 72
purchases cited for not being recorded in a telephone logbook, it agreed with our conclusion
for 25 purchases. Aircraft Services further stated that although a formal logbook was not
maintained for the remaining 47 purchases, the cardholder maintained a “Visa Charge Log”
and a “Small Purchase Documentation Sheet.” Aircraft Services also stated that these
documents “fulfill the ‘logbook’ requirement for telephone orders.”

      Offke of Inspector General Reply. Based on the information provided by Aircraft
Services, we have reduced the number of transactions identified as not being recorded in a
logbook fi-om 72 to 25. However, we have revised the report (pages 7 and 8 ) to state that
while the remaining 47 purchases were recorded in a logbook (“Visa Charge Log”), the
logbook, in our opinion, did not provide the approving official with all of the information
needed to properly certify the cardholder’s statement, such as the dates the order was placed
and received or the quantity of items ordered.

      Office of Aircraft Services Comments. Aircraft Services stated that it disagreed that
the use of a telephone logbook would increase the risk that the card could be used for
personal use and that purchase limits could be exceeded. Aircraft Services also stated, “The
cardholders’ honesty and integrity are solely responsible for preventing misuse of the
purchase card.”




                                             31
                                                                              APPENDIX 4
                                                                               Page9oflO

      Offke of Inspector General Reply. The statement in our report that “because the
cardholder did not follow purchase card procedures, there was an increased risk that the card
could be used for personal use and that purchase limits could be exceeded” refers to the
effect of the three areas under the section “Other Deficiencies” in the report (that is,
unauthorized use, split purchases, and telephone order logbooks) and not specifically to the
use of the logbook. In that regard, we agree that the use of a logbook would not detect
personal use of the card. Accordingly, we have revised the report (pages 7 and 8) to clarify
our conclusion. However, we believe that the use of a logbook would assist the cardholder
in ensuring that the 30-day purchase limit is not exceeded. We disagree that the cardholder
is solely responsible for preventing misuse of the purchase card. Internal controls are
designed to transcend the honesty and integrity of individuals. Office of the Secretary
personnel are also responsible for ensuring that management controls for preventing and
detecting improper use are established and followed.

      Offke of Aircraft Services Comment. Aircraft Services stated that the program
coordinator did not conduct a formally documented review because it “did not believe it
would be an efficient or effective use of time to review information already audited” by the
Office of Inspector General.

      Offke of Inspector General Reply. The Department’s “Handbook” requires that an
annual review of credit card transactions be conducted to ensure that the credit card is used
properly. The information quoted in the report stating that Aircraft Services did not conduct
any type of annual review and that a review would be scheduled by October 15, 1997, was
provided in writing by the program coordinator. The written document provided by the
program coordinator did not state that the reason for not conducting a review was because
it would not be an efficient and effective use of Aircraft Services time to review documents
already audited by us. Also, we found no documentation that Aircraft Services had ever
conducted such a review. We agree that it would not have been an efficient and effective use
of time and stafT of Aircrafi Services to review the information which we audited, but we
believe that the staff should perform the reviews in future years, as required by the
Department’s “Handbook.”

       Offke of Aircraft Services Comments. Aircraft Services stated that it disagreed with
the report’s conclusion that “without the reviews, there was little assurance that all items
purchased were for valid Government purposes.” Aircraft Services also stated, “Decisions
on the appropriateness of a purchase are the approving official’s responsibility.” It also
stated that “the approving official has a better understanding ofthe program” and reviews and
certifies each credit card statement.

      Office of Inspector General Reply. As noted in the report, the approving officials
were not always certifying the cardholders’ statements or were certifjling statements without
reviewing the supporting documentation for the purchases. However, management is
responsible for establishing controls to ensure that Government funds are expended for valid

                                             32
                                                                                 APPENDIX 4
                                                                                 Page 10 of 10

Government purposes and for conducting management control reviews to ensure that the
controls are in place and followed. To fulfill this responsibility, the Department requires that
an annual review of the credit card program be conducted. We believe that this review will
help ensure not only that cardholders are complying with established procedures but also that
the approving offkials are properly reviewing purchases for appropriateness.




                                              33
                                                                                APPENDIX 5
                                                                                  Page 1 of 3

             INTERIOR SERVICE CENTER COMMENTS
           AND OFFICE OF INSPECTOR GENERAL REPLIES
In its September 25, 1998, response (Appendix 3), the Interior Service Center provided
additional comments on our audit report. The Service Center’s comments and our replies
are presented in the paragraphs that follow.

       Interior Service Center Comments. The Interior Service Center stated that, based
on its review of the drafl report, it could not determine whether it was “non-compliant with
any internal controls related to bank card use per departmental regulation, or if there was a
deficiency with respect to the level of our oversight provided.” The Service Center fiuther
stated that the draft report and the debrief provided “were too broad to agree with the general
statements” made in paragraph 3 in the Scope of Survey section of the report.

      Offke of Inspector General Reply. The Interior Service Center’s seven cardholders
included in our review accounted for 28 (15 percent) of the 192 transactions that were either
not certified or were certified without sufficient supporting documentation to verify that the
items purchased were for valid Government purposes and for 38 (less than 1 percent) of the
486 transactions where cardholders allowed other employees to use their card, did not
maintain telephone logbooks or maintained inadequate logbooks, and split purchases.
However, in addition to ensuring compliance with the purchase card procedures for its own
employees, the Service Center is also responsible for ensuring that all cardholders within the
Office of the Secretary are using the credit cards properly.

Paragraph 3 of the Scope of Survey section of our report states that the Office of Inspector
General evaluated the Office ofthe Secretary’s system of internal controls related to purchase
card activities (which included the Interior Service Center) and found weaknesses in the
areas of approving officials’ reviews, unauthorized use of the card, split purchases, telephone
order logbooks, and card security. The paragraph also states that the Office of Secretary did
not provide adequate oversight of purchases made with the card. In our opinion, internal
control weaknesses relating to the use of the purchase card are exemplified by the following:
 192 (24 percent) of the 796 transactions reviewed either were not certified or were certified
without suffticient supporting documentation to verify that the items were for valid
Government purposes, and cardholders, for 486 transactions, allowed other employees to use
their card, did not maintain telephone logbooks or maintained inadequate logbooks, and split
purchases. In addition, our statement regarding inadequate oversight of the purchases made
with the card is supported by our determination that the Office of the Secretary did not
perform any of the required annual reviews of credit card transactions to ensure that the
credit cards were used properly.

      Interior Service Center Comments. The Service Center stated that it “cannot concur
with the alleged weaknesses noted in the report” because “some important basic facts” about
it “were not correctly reflected in the report.” The Service Center fMher stated that while

                                              34
                                                                                APPENDIX 5
                                                                                  Page 2 of 3

the report stated that the Office of the Secretary had 1,440 cardholders, the Service Center
is responsible for 300 purchase cards and the Oflice of Aircraft Services has fewer than 100
purchase cards. The Service Center also stated that for the period of May 1997 to May 1998,
it had approximately 2,700 transactions and that if the Off& of Aircraft Services also had
2,700 transactions, the total for both would be 5,400, which is ‘WI significantly less than
the 6650 transactions cited in the report.” The Service Center further stated that the
discrepancies cited “bring into question the validity of the 796 sample transactions which
were reviewed in the survey and the 192 transactions which were a.lleged to be faulty. . . .I’

      Offke of Inspector General Reply. The numbers of cardholders and transactions
cited in the Background section of the draft report were in error, and we have revised the
report (page 2) to reflect the correct numbers of 3 15 cardholders and 6,452 transactions.
However, this information was for background purposes only and did not affect the numbers
of cardholders or transactions that were selected for review or the results of our review.

      Interior Service Center Comments. The Service Center stated that of the examples
of “faulty transactions provided in the report, only six . , . were directly controlled” by the
Service Center purchase card program. The Service Center tier stated that these few
examples do not support the 25 percent error rate “alleged in the report” and that all
796 sample transactions “need to be examined closely to determine which ones were, in fact,
the responsibility of” the Service Center.

      Office of Inspector General Reply. The specific transactions discussed in the report
were just a few examples of the 192 transactions in which the approving officials either did
not certify the cardholders’ statements or certified the statements without obtaining vendor
invoices or itemized receipts. While only 28 (15 percent) of the 192 purchases were made
by Service Center personnel, the Service Center has overall responsibility for ensuring
compliance with the purchase card procedures for all cardholders within the Office of the
Secretary. Subsequent to our audit, we provided the Service Center with detailed results of
our review, which included information on the transactions for which the Service Center was
responsible.

       Interior Service Center Comments. The Interior Service Center stated that since
purchases made by cardholders within the Of&e of Inspector General “contribute a
significant percentage to the total purchase card dollars” within the Service Center, it
“recommend[s] consideration be given to including the OIG [Office of Inspector General]
in titure audits. ”

     Offke of Inspector General Reply. The Office of Inspector General’s transactions
were excluded to ensure independence and objectivity. As stated in the report ( page 2),
purchases made by cardholders within the Office of Inspector General during fiscal year 1997
were reviewed as part of the Office’s internal management control review. These reviews


                                              35
                                                                            APPENDIX 5
                                                                              Page 3 of 3

will be conducted periodically. Therefore, we will not include transactions of the Offke of
Inspector General in any subsequent audits of the Department’s credit card program.




                                            36
                                                      APPENDIX 6

        STATUS OF SURVEY REPORT RECOMMENDATIONS
  Finding/
Recommendation
   Reference                 Status               Action Rewired

 1,2,4,5, and 6        Management            Provide target dates
                       concurs: additional   and titles of officials
                       information needed.   responsible for
                                             implementation.

    3                  Implemented.          No fkther action is
                                             required.




                            37
                 ILLEGAL OR WASTEFUL ACTIVITIES
                     SHOULD BE REPORTED TO
                THE OFFICE OF INSPECTOR GENERAL


                             Internet/E-Mail Address

                                      www.oig.doi.gov



                     Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-922 1
Offke of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (671) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam %911
         .




Toll Free Numbers:
 l-800-424-5081
 TDD l-800-354-0996

FE/Commercial Numbers:
 (202) 208-5300
 TDD (202) 208-2420

 HOTLINE
1849 C Street, N.W.
Mail stop 5341
Washington, D.C. 20240
